No. ______

IN THE
SUPREME COURT OF THE UNITED STATES

IN RE GERALD ROSS PIZZUTO, JR.,
Petitioner.

On Petition for Extraordinary Writ and Original Petition for Writ of
Habeas Corpus
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

THIS IS A CAPITAL CASE WITH AN EXECUTION
SCHEDULED FOR JUNE 2, 2021

Deborah A. Czuba*
Bruce D. Livingston
Jonah J. Horwitz
FEDERAL DEFENDER SERVICES OF IDAHO, INC.
702 West Idaho Street, Suite 900
Boise, Idaho 83702
Deborah_A_Czuba@fd.org
208-331-5530
*Counsel

of Record

Pursuant to Supreme Court Rule 39, Petitioner Gerald Ross Pizzuto asks
leave to file the accompanying petition for extraordinary writ and original petition
for writ of habeas corpus without prepayment of costs and to proceed in forma
pauperis.
Mr. Pizzuto was granted in forma pauperis status by the United States
District Court for the District of Idaho on July 20, 2006, pursuant to 21 U.S.C.
§ 848(q)(4)(B) and Local Civil Rule 9.2(d)1). A copy of the order is attached as
Exhibit 1. In that same order, the Federal Defenders were appointed to represent
Mr. Pizzuto. See Exhibit 1. Mr. Pizzuto continued to be represented on appeal in
the Ninth Circuit by his lawyers with the Federal Defenders, pursuant to his
original in forma pauperis status and Federal Rule of Appellate Procedure 24(a)(3).
Respectfully submitted this 10th day of May 2021.
/s/ Deborah A. Czuba
Deborah A. Czuba
Counsel for Petitioner

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS – Page 1

In Re Gerald Ross Pizzuto, Jr.
Filed in Support of Motion for Leave
to Proceed In Forma Pauperis

EXHIBIT 1

(Order Granting In Forma Pauperis Status and
Appointing Counsel, Pizzuto v. Hardison,
Case No. CV 05-516-S-BLW)

Case 1:05-cv-00516-BLW Document 7 Filed 07/20/06 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO

GERALD ROSS PIZZUTO, JR.,

)
)
Petitioner,
)
)
v.
)
)
JOHN HARDISON, Warden,
)
Idaho Maximum Security Institution, )
)
Respondent.
)
_____________________________ )

Case No. CV 05-516-S-BLW

CAPITAL CASE
ORDER

The Court of Appeals for the Ninth Circuit has authorized Gerald Ross
Pizzuto, an Idaho capital inmate, to file a “second or successive” Petition for Writ
of Habeas Corpus in the District Court. (Docket No. 2.) In his Petition, Petitioner
alleges that he is mentally retarded and that his execution would violate the Eighth
Amendment under Atkins v. Virginia, 536 U.S. 304 (2002).1
This Court has conducted an initial review of the Petition, as required by
Rule 4 of the Rules Governing Section 2254 Cases, and concludes that the Petition
will not be summarily dismissed. Accordingly, Petitioner’s request for the
appointment of counsel shall be granted, and attorneys Joan Fisher and Robert

1

Petitioner’s earlier attempt to file a second or successive petition, on grounds other than
those presented here, was dismissed for lack of jurisdiction. See Case No. CV 01-374-S-BLW.
ORDER - 1

Case 1:05-cv-00516-BLW Document 7 Filed 07/20/06 Page 2 of 3

Gombiner shall be appointed to represent Petitioner during these proceedings. 21
U.S.C. § 848(q)(4)(B); D. Idaho. L. Civ. R. 9.2(d)(1).
Petitioner has informed the Court that he has included the Atkins claim in a
pending state court appeal. It appears that Petitioner filed his federal Petition at
this time in an effort to comply with the statute of limitations and to secure a place
in line while he attempts to exhaust his state court remedies. See Pace v.
DiGugliemlo, 544 U.S. 408, 416 (2005) (suggesting such a procedure). As a result,
Petitioner and Respondent have a filed a joint Motion and Stipulation to Hold
Proceedings in Abeyance. (Docket No. 6.) The Court finds good cause to stay the
federal matter, and the Motion shall be granted. Petitioner shall file quarterly
status reports, and the parties shall immediately notify the Court when the state
court proceeding has concluded.
ORDER
NOW THEREFORE IT IS HEREBY ORDERED that Petitioner’s
Application to Proceed In Forma Pauperis and for Appointment of Counsel
(Docket No. 3) is GRANTED. Joan Fisher of the Capital Habeas Unit, Federal
Defenders of Eastern Washington and Idaho, and Robert Gombiner of the Federal
Defenders of Western Washington, shall be appointed to represent Petitioner
during the pendency of these proceedings.
ORDER - 2

Case 1:05-cv-00516-BLW Document 7 Filed 07/20/06 Page 3 of 3

IT IS FURTHER ORDERED that the Capital Habeas Unit’s Motion for
Permission to Continue to Represent Petitioner in State Courts (Docket No. 5) is
GRANTED to the extent that counsel has requested the Court’s authorization, and
not an order of appointment, to appear in state court on Petitioner’s behalf in
matters related to the federal proceeding.
IT IS FURTHER ORDERED that Petitioner and Respondent’s joint Motion
and Stipulation to Hold Proceedings in Abeyance (Docket No. 6) is GRANTED.
This case shall be stayed pending completion of the state court matter currently on
appeal in Idaho Supreme Court Case No. 32679. Petitioner shall file quarterly
status reports, and the parties shall immediately notify the Court upon completion
of the state court matter.
DATED: July 20, 2006

B. LYNN WINMILL
Chief Judge
United States District Court

ORDER - 3

